BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Balubhai
Patel, et al. v. Manuel Chavez, was sent via Three Day
Service to the U.S. Supreme Court, and via Three Day
and e-mail service to the following parties listed below,
this 11th day of January, 2021:
Eugene David Lee
Law Office of Eugene Lee
633 W 5th Street, Suite 2600
Los Angeles, CA 90071-2053
(213) 992-3299
elee@loel.com
Counsel for Respondent
Frank A. Weiser
Counsel of Record
Law Offices of Frank A. Weiser
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
(213) 384-6964
maimons@aol.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
' www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A courtesy copy of the Petition was sent via Three
Day Service to the following:
Casey Lawrence Raymond
Jessenya Yamyleth Hernandez
State of California Dept. of Industrial Relations
320 W. 4th Street, Suite 600
Los Angeles, CA 90013

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 11, 2021.

Donna J. Wolf U
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

t~1 ttz;

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Olio
My CommiSSlon Expires
February 14, 2023

